No. 20-5279
IN THE

Supreme Court of the United States
WILLIAM DALE WOODEN, PETITIONER
v.
UNITED STATES OF AMERICA, RESPONDENT.

On Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit
BRIEF OF HUMAN RIGHTS FOR KIDS
AS AMICUS CURIAE IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the documents contains 6,110
words, excluding parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 10, 2021.
1044
Tony W. Torain, II
Counsel of Record
Attorney for Amicus Curiae
Human Rights For Kids

